                                                         NA nONAL   SCIENCE FOUNDA nON
                                                          OFFICE OF INSPECTOR GENERAL.
                                                            OFFICE OF INVESTIGA nONS

                                                 CLOSEOUT MEMORANDUM

  Case Number:AIOOI0008                                                                    Page I of I



                   We reviewed an allegation of plagiarism in an NSF proposal.l We contacted the Subject2,
           who acknowledged having inadequately cited some material and said she would work to overcome
           obstacles and develop a better system of citation.

                  Determining the amount of copied text to be de minimis, we sent the Subject a letter,
           reminding her of the importance of properly citing text within NSF proposals.

                     Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
